                                     Testimony of

                               JUDITH J. GORDON
              PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR
                          AUDIT AND EVALUATION
                     U.S. DEPARTMENT OF COMMERCE

                                        before the

    Subcommittee on Information Policy, Census, and National Archives
           Committee on Oversight and Government Reform
                        House of Representatives

                                 September 22, 2009


                        The 2010 Census and
               Integrated Communications Campaign


Mr. Chairman, Ranking Member McHenry, and Members of the Subcommittee:

Thank you for inviting us to testify today on the Census Bureau’s management of the
2010 decennial census and Integrated Communications Campaign. My testimony will
address our oversight of the decennial, findings from our first quarterly report to
Congress on the 2010 census, and our work on the communications campaign contract
and the partnership program. Please see the appendix to this testimony for a list of our
reports on the 2010 Census.


OFFICE OF INSPECTOR GENERAL (OIG) REVIEWS THROUGHOUT THE PAST DECADE HAVE
IDENTIFIED SIGNIFICANT CHALLENGES IN KEY OPERATIONS

Oversight of the 2010 census has been an ongoing OIG priority. We began our work in
2004 with our report on lessons learned, Improving Our Measure of America: What the
2004 Census Test Can Teach Us in Planning for the 2010 Decennial Census. Since that
time we have highlighted continuing weaknesses in key decennial areas, including
contracting, maps and address lists, systems development, and enumerating hard-to-count
populations.

•    In April 2006, the Census Bureau awarded the Field Data Collection Automation
     (FDCA) contract to the Harris Corporation. FDCA was a cost-reimbursement contract
    intended to automate and integrate major field operations for the 2010 decennial,
    including use of handheld computers to conduct address canvassing and nonresponse
    follow-up. The mounting FDCA problems prompted the decision, in April 2008, to
    abandon use of the handhelds for nonresponse follow-up while focusing resources on
    ensuring that the handhelds could support address canvassing. This change set in
    motion contract renegotiations between the bureau and Harris, with each party
    redefining its respective role to minimize cost and schedule risks. The renegotiations
    also gave the bureau the opportunity to revisit the contract type and fee structure it
    originally negotiated, and modify it as appropriate.

    With this in mind, we conducted an audit to determine whether (1) award fees paid to
    Harris were appropriate, (2) the incentive fee structure used in those periods was the
    most effective for motivating excellent performance, and (3) cost-plus-award fee was
    the best contract arrangement for acquiring the system. Our audit resulted in
    recommendations for improving the contract by, among other items, establishing
    measurable criteria for assessing performance and determining fees; modifying the
    fee structure to promote performance excellence and limit the practice of rolling over
    fees; and incorporating fixed pricing for deliverables, whenever possible.

•   We are auditing the contract for the Decennial Response Integration System, which
    will capture census response data from paper forms and provide for telephone
    enumeration and follow-up.

•   We are also auditing the communications contract, which is being used to raise
    awareness and to educate residents about the 2010 Census and the importance of their
    response, with a major focus on minority communities and other areas that have
    historically lower-than-average response rates.

•   We recently began an evaluation of the partnership program, which brings national,
    regional, tribal and local government, business, and nonprofit organizations together
    to promote participation in the 2010 Census. I will address our work on the
    communications contract and partnership program later in my testimony. Both of
    these programs have received additional funding under the American Recovery and
    Reinvestment Act.

•   With the beginning of address canvassing last spring, we have given considerable
    attention to assessing the management issues and risks involved in planning and
    conducting field operations. Because the Census Bureau describes “an accurate,
    comprehensive, and timely [address] list” as “one of the best predictors of a
    successful census,” we observed the address canvassing operation firsthand across the
    country. We reported that important procedures were not being followed. Census
    responded quickly to this finding by communicating to field staff and regional
    directors about the issue. However, at that point, many areas had completed
    production.




                                            2
•   Census depends on its address-canvassing quality-control operation to identify and
    correct errors resulting from listers’ not following procedures. We therefore expanded
    the number and breadth of our field observations to focus on this quality-control
    element, particularly in rural areas, and will present our results in a subsequent report.
    However, we did find one notable issue: quality control listers were unable to make
    changes to the address list after the initial quality check passed and they were
    confirming housing unit deletions. This problem increases the bureau’s risk of
    housing units being omitted from the master address file and therefore of not
    receiving census questionnaires. In some cases, quality control listers recorded units
    on paper that they could not enter into their handheld computers. Census is in the
    process of reviewing procedures to incorporate these units, but the actions of
    individual listers were not standard and the procedures not consistently used.

•   As a result of limitations in the number of addresses that its handheld computers
    could hold, Census deployed a contingency plan to canvass blocks containing more
    than 1,000 addresses. Our assessment of this operation found a number of problems
    that demonstrated the need for improved contingency planning.

•   We are identifying lessons learned from address canvassing to help make
    nonresponse follow-up more effective and less costly. Nonresponse follow-up is a
    massive operation in which census workers collect data from households that have
    not mailed back their census questionnaires. We are looking at the causes of budget
    variances for address listers’ time, mileage, and expenses incurred during address
    canvassing to help identify actions the bureau can take to better control costs during
    nonresponse follow-up. We are also auditing the accuracy and integrity of the payroll
    system used for the hundreds of thousands of temporary Census employees.

•   Finally, we are evaluating the results of the operation that validates the location of
    group residences (e.g., military bases, college dormitories, prisons, and nursing
    homes) for later enumeration.


OIG’S FIRST QUARTERLY REPORT TO CONGRESS FOUND PROBLEMS WITH PROGRAM
MANAGEMENT SYSTEMS, RISK MANAGEMENT, AND REPORTING TRANSPARENCY

The Supplemental Appropriations Act of 2008 gave the Census Bureau an additional
$210 million to help cover spiraling 2010 decennial costs. The act’s explanatory
statement required the bureau to submit to the Senate and House Committees on
Appropriations a detailed plan and time line of decennial census milestones and
expenditures, and a quantitative assessment of associated program risks.

OIG was also required to provide quarterly reports on the bureau’s progress against this
plan. The objective of our first report was to determine the limitations in the bureau’s
ability to oversee the systems and information for tracking schedule activities, cost, and
risk management activities that depended on a baseline provided by Census in May of
this year.


                                              3
Our review discovered that the bureau’s ability to effectively oversee decennial
census progress has long been hampered by inherent weaknesses in its systems and
information for tracking schedules, cost, and risk management activities. The overarching
problem is that these systems and information are not integrated in a manner that allows
progress to be objectively measured against the project plan—in other words, the bureau
does not have metrics that directly link the schedule of specific activities, the cost of
those activities, and the work actually accomplished. This makes it difficult to assess
progress and forecast cost and schedule overruns.

To its credit, the bureau’s management of risk represents a significant improvement over
the 2000 decennial, which lacked a formal risk management process, but important issues
remain. Specific limitations that affect the bureau’s management of the decennial census
include

•   not using critical-path management to identify the activities that must be completed
    on time so that the entire project is not delayed,
•   lack of thorough up-front review of project start and end dates,
•   limited integration of major contractor activities,
•   lack of integration of schedule activities and budget plan/expenditure information,
•   unreliable cost estimate,
•   lack of transparency in use of contingency funds,
•   lack of systematically documented program and funding decisions,
•   risk management activities that are behind schedule, and
•   varying quality and content of mitigation plans.

Further, the bureau did not clearly and accurately report on the status of the risk
associated with the FDCA system, which includes the handheld computers, and ceased
reporting it as a key issue in the Monthly Status Report—which is provided to the
Department, OMB, and the Congress—even though the issue had not been adequately
resolved.

We have forwarded recommendations to the Census Bureau based on our First Quarterly
Report. Given where we are with the 2010 decennial, many of our recommendations
represent lessons learned and look ahead to the 2020 decennial. They include

•   integrating schedule and cost activities associated with a small-scale 2010 decennial
    operation having both headquarters and field components, as a prototype for
    integrating all schedule and cost activities for the 2020 census;

•   completing the schedule development process earlier in the 2020 decennial life cycle
    and integrating cost and schedule activities of bureau and contractor operations to


                                              4
    allow Census managers to better track the status of available funds, forecast
    impending overruns, and improve the transparency of decennial census decisions to
    census stakeholders;

•   developing a transparent decision documentation strategy to account for 2020 census
    program and spending decisions; and

•   strengthening and implementing a risk management strategy and related contingency
    plans prior to the start of 2020 decennial census operations.

The bureau has concurred with our recommendations and is formulating approaches to
address them.


THE CENSUS BUREAU HAS BEEN DILIGENT IN MONITORING THE INTEGRATED
COMMUNICATIONS CAMPAIGN, BUT THERE HAVE BEEN DELAYS IN DELIVERY OF INITIAL
PLAN AND PROMOTIONAL ITEMS

The integrated communications campaign is part of the Census Bureau’s attempt to
increase the response rate to the questionnaire mailing, thereby decreasing the resources
needed for the bureau’s follow-up. The campaign also emphasizes increased participation
of traditionally hard-to-count populations. The communications campaign includes
promotional materials, media advertising, and outreach to parents and guardians through
their school-age children.

We have been monitoring the bureau’s progress in soliciting and awarding a contract to
implement the campaign, including an assessment of how well the bureau has improved
upon the structure and effectiveness of the advertising contract used for the 2000 census.
In September 2007, the bureau awarded a contract to DraftFCB. The contract now
contains 23 task orders valued at about $300 million, with one-third of those funds
already being obligated. Of the total, $100 million in funding came from the American
Recovery and Reinvestment Act.

This past February we began reviewing the overall integrated communications campaign,
including the contract with DraftFCB. We are assessing the challenges associated with
distributing promotional materials through regional census centers. Our preliminary
observations indicate that the bureau has been diligent in its management and monitoring
of DraftFCB’s execution of the contract. However, we have noted delays in the delivery
of the contractor’s initial communications plan and delivery of promotional items to
regional field offices to distribute to their partners. Other areas of focus include contract
requirements, plans, deliverables, time lines, and funding requirements.

The Census Bureau’s partnership program is a key component of its efforts to improve
mail response, decrease the comparative undercount of certain populations, and improve
respondent cooperation. Census used the $120 million in Recovery Act funds to hire an
additional 2,027 positions to focus on increasing partnerships in hard-to-count


                                              5
communities. In monitoring the program during this time, we saw that Census allocated
positions using hard-to-count data and successfully met its hiring goals by the July 1,
2009, deadline. Further, we recently initiated a review to evaluate the specialist and new
Recovery Act “assistant” roles and activities, determine whether partners are receiving
and using Census-funded promotional materials, and—on a limited basis—assess partner
satisfaction.

In summary, the bureau is taking positive steps to increase the mail response rate and the
participation of hard-to-count populations. With the limitations in its project management
systems, it faces significant challenges in assessing progress and forecasting cost and
schedule overruns for the duration of the decennial. Major areas we intend to watch going
forward include

•   the bureau’s evaluation of the quality of the master address file and its plans for any
    subsequent improvement actions;
•   the communications campaign’s effectiveness in providing promotional materials and
    advertising that are timely, on message, and within budget;
•   the effectiveness of the vastly increased partnership staff to promote outreach efforts
    to hard-to-count populations;
•   the bureau’s progress in developing the automated paper-based operations control
    system—needed to manage enumerator assignments and track their progress—on a
    highly compressed schedule; and
•   components of the enumeration process, including nonresponse follow-up.

Mr. Chairman, this concludes my prepared statement. I would be pleased to respond to
any questions that you or any other Members of the Subcommittee may have at this time.




                                              6
APPENDIX



   Office of Inspector General Reports on the 2010 Decennial Census
                 (Reports are available in OIG Census Reading Room at
         http://www.oig.doc.gov/oig/reports/census_reading_room/index.html)

2009
   •   Memorandum to Director, Bureau of the Census, with Recommendations from
       2010 Census: First Quarterly Report to Congress, August 2009 (OIG-19791-l).

   •   Problems Encountered in the Large Block Operation Underscore the Need for
       Better Contingency Plans, August 2009 (OIG-19171-02).

   •   2010 Census: First Quarterly Report to Congress, August 2009 (OIG-19791-1).

   •   Observations and Address Listers’ Reports Provide Serious Indications That
       Important Address Canvassing Procedures Are Not Being Followed, May 2009
       (OIG-19636-01).

   •   Census 2010: Revised Field Data Collection Automation Contract Incorporated
       OIG Recommendations, But Concerns Remain Over Fee Awarded During
       Negotiations, March 2009 (CAR 18702).

   •   Census 2010: Delays in Address Canvassing Software Development and Testing,
       Help Desk Planning, and Field Office Deployment Have Increased Operational
       Risk, February 2009 (OIG-19171).


2008
   •   Census 2010: Dress Rehearsal of Address Canvassing Revealed Persistent
       Deficiencies in Approach to Updating the Master Address File, October 2008
       (OSE-18599).

   •   FY 2008 FISMA Assessment of the Field Data Collection Automation System,
       September 2008 (OSE-19164).

   •   Census 2010 Decennial: Census Should Further Refine Its Cost Estimate for
       Fingerprinting Temporary Staff, August 2008 (OIG-19058-1).

   •   Census 2010 Decennial: OIG Reviews Through the Decade Identify Significant
       Problems in Key Operations, June 2008 (OIG-19217).




                                          7
APPENDIX


2007
   •   Follow-up Review of the Workers' Compensation Program at the Census Bureau
       Reveals Limited Efforts to Address Previous OIG Recommendations, September
       2007 (IPE-18592)

   •   Census 2010: Key Challenges to Enumerating American Indian Reservations
       Unresolved by 2006 Census Test, September 2007 (OSE-18027).


2006
   •   Enumerating Group Quarters Continues to Pose Challenges, October 2006
       (OIPE-18046-09-06).

   •   Valuable Learning Opportunities Were Missed in the 2006 Test of Address
       Canvassing, March 2006 (OIG-17524-03-06).


2005
   •   FDCA Program for 2010 Census Is Progressing, but Key Management and
       Acquisition Activities Need to be Completed, August 2005 (OSE-17368)


2004
   •   Improving Our Measure of America: What the 2004 Census Test Can Teach Us in
       Planning for the 2010 Decennial Census, September 2004 (OIG-16949-1).


2003
   •   MAF/TIGER Redesign Project Needs Management Improvements to Meet Its
       Decennial Goals and Cost Objective, September 2003 (OSE-15725).


2002
   •   Selected Aspects of Census 2000 Accuracy and Coverage Evaluation Need
       Improvements Before 2010, March 2002 (IG-14226).

   •   Improving Our Measure of America: What Census 2000 Can Teach Us in
       Planning for 2010, March 2002 (OIG-14431).




                                         8
